gus}
i

OCKLE

2311 Douglas Street No 3 E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B ee a contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

AGI CONSULTING, LLC, an Oklahoma Limited
Liability Company by Assaf Al-Assaf
as Trustee/Owner/Plan Administrator of an
Alleged non-integrated Defined Benefit Plan,
Petitioner,
v.
AMERICAN NATIONAL INSURANCE COMPANY,
a Texas insurance Company,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 6546 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of June, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska 4) / Xv CLL
RENEE J. GOSS .
My Comm. Exp. September 5, 2023 =

Affiant 39442

    

Notary Public
